              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Management of Beryllium Metal
Supply




DOE/IG-0583                                 January 2003
Management of Beryllium Metal Supply


TABLE OF
CONTENTS



                   Solutions to Beryllium Metal Shortage

                   Details of Finding ........................................................................ 1

                   Recommendations and Comments ........................................... 3


                   Appendices

                   Objective, Scope, and Methodology........................................... 5

                   Management Comments ............................................................ 7
SOLUTIONS TO BERYLLIUM METAL SHORTAGE

Background               The Department of Energy (Department) uses beryllium metal to
                         fabricate weapons components and to facilitate a number of weapons-
                         related experiments. Based on its analysis of the President's 2001
                         Nuclear Posture Review, the National Nuclear Security Administration
                         (NNSA) estimated that it would need approximately 90 tons of
                         beryllium metal to meet mission requirements over the next 30 years.
                         About 50 tons of the material is currently available for purchase from
                         the Defense Department's National Defense Stockpile. Because the
                         only domestic producer of beryllium metal from ore ceased production
                         in 2000, NNSA had been uncertain how it would overcome the
                         perceived shortfall.


Beryllium Metal Supply   NNSA's preferred alternative – requesting more material from the
                         National Defense Stockpile – was problematic. In May 2002, NNSA
                         sent the Department of Defense a memorandum requesting that all
                         remaining beryllium metal in the stockpile be reserved for NNSA
                         purchase. NNSA officials were skeptical, however, as to whether the
                         request would be approved because the Defense Department also has
                         national security requirements for the same material. As of October
                         2002, the Department of Defense had not indicated what its response
                         would be.

                         Our audit disclosed that NNSA had not fully considered alternative
                         approaches for meeting its requirements. We noted at least two options,
                         each involving process changes that could help NNSA reduce its
                         overall need for beryllium metal, that had not been analyzed. These
                         processes, involving "near-net shaping" and recycling, are briefly
                         described below.

                                                   Near-Net Shaping

                         NNSA's existing beryllium metal weapon component manufacturing
                         process involves machining down large blocks of beryllium metal so
                         that only about four percent of the feed material ends up in the final
                         product. This means that the process results in a discard of 96 percent
                         of the material as scrap. Technical experts explained that this metal
                         could not be reused for weapons production without reprocessing since
                         it contains impurities from the manufacturing process. Near-net
                         shaping, on the other hand, is a process by which beryllium powder is
                         sized to a shape closer to that of the final parts, thereby allowing NNSA
                         to use significantly less beryllium metal to manufacture the same parts.
                         A 1989 National Material Advisory Board Report, Beryllium Metal
                         Supply Options, stated that successful implementation of near-net

Page 1                                                                        Details of Finding
                         shaping for Department uses is virtually assured since near-net shaping
                         techniques have been used commercially for years and the basic process
                         technology is well established. In fact, the Department's preliminary
                         evaluation of near-net shaping successfully demonstrated efficiencies
                         almost six times greater than the current process.

                         At our request, NNSA conducted a preliminary analysis of the use of
                         near-net shaping for its manufacturing processes. NNSA concluded
                         that the near-net process had the potential to allow NNSA to meet all
                         currently identified stockpile requirements with less than 48 tons of
                         beryllium metal. In this scenario, NNSA could meet its needs with
                         supplies already available and would not need to rely on the
                         Department of Defense for any additional material.

                                                        Recycling

                         Another approach that could allow NNSA to conserve its limited supply
                         of beryllium metal is reestablishing the Department's beryllium
                         recycling capability. In the late 1980s, the Department successfully
                         demonstrated the capability to recycle processed beryllium at the Rocky
                         Flats Plant. Since that time, the recycling equipment has been
                         decommissioned and the Department has not pursued a recycling
                         option. Although costs associated with purchasing or manufacturing
                         new recycling equipment would need to be considered, NNSA has
                         estimated that recycling could allow it to reuse up to 98 percent of the
                         beryllium metal scrap. As described above, the Department's current
                         manufacturing process generates large amounts of beryllium scrap due
                         to the low material utilization rate. If near-net shaping were employed,
                         less scrap would be generated, but recycling could still be employed to
                         reduce wasted material to an absolute minimum.

Consideration of Other   NNSA did not fully consider all available alternatives for addressing its
Alternative Approaches   beryllium metal requirements because it focused solely on obtaining
                         more material, rather than also considering ways to conserve existing
                         supplies. In early 2002, NNSA chartered a working group to formulate
                         and evaluate alternatives to assure that beryllium metal would be
                         available for future stockpile requirements. However, the working
                         group limited its scope to increasing the supply of beryllium metal and
                         did not include an investigation of methods to reduce the initial amount
                         of beryllium required in the manufacturing process.

                         During the audit, we discussed the near-net shaping and recycling
                         approaches with NNSA officials. In October 2002, officials informed
                         us that they planned to fund research and development activities to
                         further explore the feasibility of implementing the near-net shaping
                         process and recycling.
Page 2                                                                        Details of Finding
Potential Costs and   The Department's program to certify that nuclear weapons in the
Hazards               nation's stockpile remain safe and reliable could be jeopardized if an
                      adequate supply of beryllium metal is not assured. Specifically, given
                      NNSA officials' belief that the Department of Defense is unlikely to
                      make additional beryllium metal available, the further examination of
                      alternatives is, in our judgment, a prudent step toward ensuring that
                      mission needs will be met.

                      In addition, implementation of NNSA's preferred alternative will
                      require NNSA to spend $42 million to purchase additional beryllium
                      metal from the National Defense Stockpile. This additional cost
                      represents the difference between the 90 tons of beryllium metal
                      required using the current manufacturing process and the 48 tons
                      needed if near-net shaping was implemented. In addition to avoiding
                      this cost, health risks can be mitigated by implementing alternative
                      solutions. While NNSA has taken steps in recent years to limit worker
                      exposure to beryllium, additional improvements can be made.
                      Specifically, dust control is the primary preventative measure used to
                      limit occupational beryllium exposure. NNSA's current manufacturing
                      process produces significantly more dust than would be generated by
                      using a near-net shaping process. The alternative process forms the
                      beryllium metal into shapes close to the final product, which requires
                      less machining and produces much less beryllium dust.


RECOMMENDATIONS       We recommend that the Deputy Administrator for Defense Programs:

                           1. Evaluate the feasibility and cost of incorporating near-net
                              shaping into the manufacturing process for beryllium metal;

                           2. Evaluate the feasibility and cost of establishing a beryllium
                              metal recycling capability; and,

                           3. Implement the most efficient and effective alternative to meet
                              the future nuclear weapons stockpile demand for beryllium
                              metal.


MANAGEMENT            NNSA's Associate Administrator for Management and Administration
REACTION              generally agreed with the finding (Appendix 2). In separate technical
                      comments, the Associate Administrator concurred in principle with the
                      first two recommendations, disagreed with the third, and proposed a
                      fourth recommendation requiring NNSA to more adequately fund
                      beryllium metal research.

Page 3                                                 Recommendations and Comments
                   While NNSA agreed with the first recommendation, the response noted
                   that since near-net shaping was a mature industrial technology whose
                   feasibility had already been demonstrated, an evaluation of feasibility
                   would be unnecessary. However, NNSA would still need to insure that
                   parts produced using near-net shaping could be certified for NNSA
                   applications, and request approval from the design agencies for the new
                   process.

                   With regard to the second recommendation, management agreed to
                   evaluate the establishment of a fully integrated beryllium metal recycle
                   and fabrication facility/capability. NNSA added that the equipment
                   previously used for recycling beryllium metal used a low throughput
                   technology and that more modern technology has been proposed but
                   never proven.

                   Management indicated that the third recommendation was premature
                   since other organizations within the Department have beryllium metal
                   requirements that were not addressed in the draft report. Furthermore,
                   the supply of beryllium metal is a national problem. Accordingly,
                   NNSA's path forward would be greatly impacted by the position taken
                   by the Department of Defense. Once the Department of Defense
                   establishes its position with respect to beryllium metal, the path forward
                   for NNSA will be clearer. Management stated that they would be
                   willing to establish a joint task force with the Department of Defense to
                   work towards implementing the most cost effective and efficient means
                   to meet NNSA's demand for beryllium metal, once the Department of
                   Defense established its own beryllium metal position.


AUDITOR COMMENTS   We consider management's response to the first two recommendations
                   to be responsive. With regard to the third recommendation, however,
                   we believe that the conservation of the finite supply of beryllium metal
                   would benefit all parties and, as the report indicated, if NNSA adopted
                   the measures proposed, their path forward would not be impacted by
                   the Department of Defense. We did not incorporate the proposed fourth
                   recommendation because the Department had already planned to fund
                   beryllium metal research.




Page 4                                               Recommendations and Comments
Appendix 1
OBJECTIVE     We initiated the audit to determine whether NNSA identified the most
              efficient and effective method to meet the future nuclear weapon
              stockpile demand for beryllium metal.


SCOPE         The audit was performed from April 24, 2002, to September 19, 2002,
              at the Los Alamos National Laboratory in Los Alamos, New Mexico,
              the Albuquerque Service Center and Sandia National Laboratory, in
              Albuquerque, New Mexico, and NNSA Headquarters, in Washington,
              D.C. The audit included a review of the NNSA's future beryllium metal
              requirements and current manufacturing processes and inventories. The
              scope of the audit did not include the future beryllium metal
              requirements for other programs within the Department. Historically,
              these other requirements were significantly less than the NNSA
              requirements and required a lower grade of beryllium, which would be
              available from the scrap beryllium metal from NNSA's beryllium metal
              operations.


METHODOLOGY   To accomplish the audit objective, we:

                  • Reviewed the beryllium metal inventory level in the National
                    Defense Stockpile;

                  • Evaluated NNSA's consideration of alternative manufacturing
                    processes;

                  • Reviewed reports discussing beryllium metal supply;

                  • Evaluated NNSA's actions to address the beryllium metal
                    supply; and,

                  • Interviewed personnel from NNSA Headquarters, the
                    Albuquerque Service Center, Los Alamos National Laboratory,
                    and Sandia National Laboratory.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              audit included reviews of NNSA's beryllium metal supply management
              activities. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit. As part of our review, we also evaluated the


Page 5                                         Objective, Scope, and Methodology
         Department's implementation of the Government Performance and
         Results Act of 1993. While we did not find any specific performance
         objectives related to beryllium production, we did determine that the
         NNSA had developed requirements for stockpile maintenance. We did
         not rely on computer-processed data to achieve our audit objective.

         NNSA waived the exit conference.




Page 6                                  Objective, Scope, and Methodology
Appendix 2




Page 7       Management Comments
                                                                              IG Report No.: DOE/IG-0583

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
